<html>
<title> - OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR'S FAILURE TO COOPERATE WITH CONGRESSIONAL OVERSIGHT REQUESTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


      THE DEPARTMENT OF THE INTERIOR'S FAILURE TO COOPERATE WITH 
                   CONGRESSIONAL OVERSIGHT REQUESTS

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                      Thursday, September 26, 2019
                               __________

                           Serial No. 116-23
                               __________

       Printed for the use of the Committee on Natural Resources


                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
                     
                     
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-901 PDF                 WASHINGTON : 2020                        
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov




                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, September 26, 2019.....................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     4
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:

    Jorjani, Daniel, Solicitor, U.S. Department of the Interior, 
      Washington, DC.............................................     5
        Prepared statement of....................................     7
        Questions submitted for the record.......................     8

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    44

    Submissions for the Record by Representative Grijalva

        Internal DOI E-mail Delaying Correspondence with Chair 
          Grijalva dated March 14, 2019..........................    38
        Follow-up Internal DOI E-mail Delaying Correspondence 
          with Chair Grijalva dated March 21, 2019...............    38

    Submission for the Record by Representative Haaland

        Unnecessarily Redacted Phone Records.....................    42

    Submission for the Record by Representative Lowenthal

        Unresponsive and Heavily Redacted DOI Document Production    39

    Submission for the Record by Representative Tonko

        Unresponsive and Heavily Redacted DOI Document Production    41
                                     


 
   OVERSIGHT HEARING ON THE DEPARTMENT OF THE INTERIOR'S FAILURE TO 
            COOPERATE WITH CONGRESSIONAL OVERSIGHT REQUESTS

                              ----------                              


                      Thursday, September 26, 2019

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 2:04 p.m., in 
room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Sablan, Huffman, 
Lowenthal, Gallego, Cox, Haaland, Van Drew, Cunningham, 
Velazquez, Soto, Cartwright, Tonko; Bishop, Gohmert, 
McClintock, Westerman, Hice, Radewagen, Webster, Gonzalez-
Colon, and Hern.

    The Chairman. The Committee on Natural Resources will come 
to order.
    The Committee is meeting today to hear testimony on the 
``Department of the Interior's Failure to Cooperate with 
Congressional Oversight Requests.''
    Under Committee Rule 4(f), any oral opening statements are 
limited to the Chairman and the Ranking Minority Member. 
Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record, if they 
are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    For an opening statement, let me recognize myself.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. Congressional oversight of the executive 
branch is an integral part of our democracy's system of checks 
and balances. As representatives of the American people, 
Congress must help ensure that the current administration is 
acting in the best interests of the people, in concurrence with 
existing laws, and in a way that is free from corruption, 
fraud, or waste.
    Let me quote, ``In regards to oversight, it is not only 
Congress' right, but our responsibility to hold the executive 
branch accountable for its actions and decisions. In turn, we 
expect the Administration to be honest and transparent.'' That 
quote comes from the former Full Committee Chairman, Chairman 
Doc Hastings, on September 10, 2014. I bring that up because, 
as his picture also adorns the wall here, that has been a 
consistent demand regardless of who the Majority is--the 
oversight function and its importance. And I think Chairman 
Hastings said it much better than I could.
    But, unfortunately, that has not stopped the Trump 
administration from delaying, obstructing, and sometimes just 
ignoring our efforts to conduct oversight. The Trump 
administration has declared open war on Congress' 
constitutional authority to conduct oversight. And the 
Department of the Interior is no exception.
    To date, this Committee has made over 25 formal requests 
for information or documents from Interior. To date, we have 
only received complete or nearly complete responses to three of 
them. Fourteen of those requests--well over half--have received 
no substantive response at all.
    Interior likes to talk about the numbers of documents and 
pages they have sent us. But they are padding the numbers. In 
one case, they gave us a 12,000-page print-out of a single 
Excel table.
    [Slide.]
    The Chairman. There is the visual up there. It was 
unusable, print-outs of large spreadsheets usually are--12,000 
pages of that. And it was sitting on Interior's website. Rather 
than taking 2 months to print and scan 12,000 pages, they could 
have just e-mailed us the link.
    In response to our request about the former Secretary's 
review of our national monuments, they sent us 100 pages of 
unintelligible symbols.
    [Slide.]
    The Chairman. We have gotten documents with redactions from 
Interior, while they sent the same documents to the public 
through FOIA without those redactions. When we asked them about 
it, staff told us that the redacted information wasn't related 
to our request. Not only was that not true, but Interior does 
not go through each individual document to redact content that 
isn't responsive. The 100 pages of symbols make that pretty 
clear.
    Before Secretary Bernhardt came to testify before this 
Committee in May, we tried to make things easy and asked him to 
prioritize four very narrow document requests. One of those 
requests asked for a single document by file name. We couldn't 
even get that one.
    Their efforts seem to be particularly targeted toward me. 
E-mails obtained by the Committee this past spring showed that 
the Interior employees were instructed to withhold any 
communications directed to me for about 2 weeks. Another e-mail 
said that any documents I requested were to be reviewed by two 
high-ranking political appointees. That was directed just at 
me. No other Member of the House or this Committee was singled 
out the same way. Despite asking about these instructions 
multiple times, still no answer.
    And it is just not Congress. Interior has resisted 
oversight by both the Inspector General and the Government 
Accountability Office since the beginning of this 
administration. In fact, GAO has called Interior the least 
responsive department in the entire Federal Government.
    When he testified before this Committee, Secretary 
Bernhardt proposed that we meet to discuss a reasonable 
timetable for producing documents we requested. At that 
meeting, DOI staff declared they would not be committing to any 
timetables out of concern that we might hold them to that 
agreement. They refused to tell us who their witness would be 
for this hearing until yesterday, 1 to 2 weeks has usually been 
the norm.
    These actions paint a picture of a department acting in bad 
faith. Interior's refusal to cooperate means the Committee 
cannot do the oversight envisioned in our Constitution. We need 
information from the Administration to assist us with 
legislation, oversight, and to keep the Department accountable 
to the American people.
    The American people deserve a government that works 
together. And we need something better than this situation now. 
I hope today's hearing helps us move past this logjam to find a 
path forward.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    Congressional oversight of the executive branch is an integral part 
of our democracy's system of checks and balances. As representatives of 
the American people, Congress must help ensure that the current 
administration is acting in the best interests of the people, in 
concurrence with existing laws, and in a way that is free from 
corruption, fraud, and waste.
    But that has not stopped the Trump administration from delaying, 
obstructing, and sometimes just ignoring our efforts to conduct 
oversight. The Trump administration has declared open war on Congress' 
constitutional authority to conduct oversight. And the Department of 
the Interior is no exception.
    To date, this Committee has made 25 formal requests for information 
or documents from Interior. And to date, we have only received complete 
or nearly complete responses to three of them. Fourteen of those 
requests--well over half--have received no substantive response at all.
    Interior likes to talk about the numbers of documents and pages 
they have sent us. But they're padding the numbers. In one case, they 
gave us a 12,000-page printout of a single Excel table. It was 
unusable, as printouts of large spreadsheets usually are. And it was 
sitting on Interior's website. Rather than taking 2 months to print and 
scan 12,000 pages, they could have just emailed us the link.
    In response to our request about the former Secretary's review of 
our national monuments, they sent us 100 pages of unintelligible 
symbols.
    We've gotten documents with redactions from Interior, while they 
sent the same documents to the public through FOIA without those 
redactions. When we asked them about it, staff told us that the 
redacted information wasn't related to our request. Not only was that 
not true, but Interior does not go through each individual document to 
redact content that isn't responsive. The 100 pages of symbols make 
that pretty clear.
    Before Secretary Bernhardt came to testify before this Committee in 
May, we tried to make things easy and asked him to prioritize four very 
narrow document requests. One of those requests asked for a single 
document by file name. We couldn't even get that.
    Their efforts seem to be particularly targeted toward me. E-mails 
obtained by the Committee this past spring showed that Interior 
employees were instructed to withhold any communications directed to me 
for about 2 weeks. Another e-mail said that after the 2 weeks, any 
documents I requested were to be reviewed by two high ranking political 
appointees. Just me, no other member of the House was singled out. 
Despite asking about these instructions multiple times, I still have 
not gotten answers.
    It's not just Congress. Interior has resisted oversight by both the 
Inspector General and the Government Accountability Office, or GAO, 
since the beginning of this administration. In fact, the GAO has called 
Interior the least responsive department in the entire Federal 
Government.
    When he testified before this Committee, Secretary Bernhardt 
proposed that we meet to discuss a reasonable timetable for producing 
the documents we requested. At the meeting, DOI staff declared they 
would not be committing to any timetables out of concern that we might 
hold them to their agreement. They refused to tell us who their witness 
would be for this hearing until yesterday--1-2 weeks is the norm.
    These actions paint a picture of a department acting in bad faith. 
Interior's refusal to cooperate means this Committee cannot do the 
oversight envisioned in our Constitution. We need information from the 
Administration to assist us with legislation, oversight, and to keep 
the Department accountable to the American people.
    The American people deserve a government that works together better 
than this. I hope today's hearing helps us move past this logjam to 
find a path forward.

                                 ______
                                 

    The Chairman. With that I yield to the Ranking Member, Mr. 
Bishop, for his opening comments.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Grijalva. I think, in some 
respects, I can understand the feelings that you are going 
through now. When I was Chairman, we had the same concepts many 
times.
    But I do want to start off by congratulating Solicitor 
Jorjani for your confirmation that has just happened. Secretary 
Bernhardt came to this Committee just 35 days after he was 
confirmed. You are here less than 48 hours after you were 
confirmed. If that is not some kind of prompt and responsive 
service, I actually don't know what is.
    When Secretary Bernhardt took over as Acting Secretary, the 
Department produced for this Committee over 100,000 pages of 
information from 22 different oversight requests. That was a 
grand total of 12,000 documents, which is amazing, when you 
consider the last time there was such a hearing like this about 
the Obama Interior Department's administration, many on the 
other side were saying the 5,000 documents that they had 
produced, which was 60,000 pages, was unique and amazing. So, 
you have performed extremely well, producing a whole lot more 
information in a shorter period of time than what was good back 
in those good old days.
    Look, oversight is the responsibility of Congress, and it 
is good. And when it is bipartisan it can yield good results. 
Let me give you an example.
    There were credible allegations about groups like the World 
Wildlife Fund, which was using taxpayer-funded grants from the 
Department to support cases of human rights violations, things 
like torture and rape and extrajudicial killings under the 
cover of species conservation, with absolutely little to no 
accountability toward it. We pushed for answers, and I do 
appreciate Mr. Grijalva, as Chairman of this Committee, also 
pushing for responses to it. And I actually thank the 
Department for responding to this Committee's inquiry, also by 
taking your very proactive steps to flag and halt some of the 
riskiest grants that were being done in the past. That is very 
positive.
    I think positive changes are coming from that oversight 
request, and I look forward to working with Chairman Grijalva, 
as we continue to work with the Department to address the 
lapses of accountability in these types of funds.
    But not all congressional oversights are of equal value. 
The investigation of the Secretary's calendars, it produced 
thousands of pages of documents, and multiple employees, 
including the Department's chief of staff, had to be available 
for 22 hours of transcript interviews. And at the end of that 
month--all those months of this particular exercise, what we 
learned were employees managed the Secretary's schedule, and 
lawyers conduct reviews, and records were properly maintained 
by the law, and actually that Bernhardt was employing a 
stricter review process than had been done before.
    There are always some attempts by some to recurringly 
demonize--obsessively demonize--certain segments of the 
stakeholders, certain select industries and people who have 
experience and expertise in the natural resources realm. 
Knowledgeable industry experience and expertise should not be 
viewed with skepticism, but has a value to it, especially when 
there is some balance to it.
    And I think we are very fortunate to have a Secretary who 
knows this Department, its agencies, as well as impacted 
industries better than anyone, and is using this knowledge to 
reform a Department that has a long history of mismanagement to 
one that provides taxpayers with the best services, and is 
responsive to their particular needs.
    So, if we are going to do another witch hunt at some time, 
I think we should all park our pitchforks at the door before we 
go into it. For, indeed, as one person said 5 years ago in a 
hearing, this is indeed about optics and fighting about things, 
rather than getting to the bottom of them. And after they 
reviewed many of the documents in response to the Committee's 
inquiry, further said, ``The scandal is, in fact, the search 
for a scandal.''
    I think, Mr. Huffman, you were correct 5 years ago and you 
are correct about this hearing, as well. The same thing 
applies.
    I yield back.

    The Chairman. Thank you. I want to thank our witness today, 
the Solicitor of the Department of the Interior, Mr. Daniel 
Jorjani.
    And congratulations, as well, on your confirmation. Thank 
you very much for taking the time to be here.
    Under Committee Rules, oral statements are limited to 5 
minutes, but your entire statement will appear in the hearing 
record.
    The lights in front of you will turn yellow when there is 1 
minute left, and red when time has expired.
    After testimony is complete, Members will be given the 
opportunity to ask questions.
    With that, Mr. Jorjani, the Chair recognizes you for your 
testimony. And thank you again.

STATEMENT OF DANIEL JORJANI, SOLICITOR, U.S. DEPARTMENT OF THE 
                    INTERIOR, WASHINGTON, DC

    Mr. Jorjani. Thank you, and good morning, Chairman 
Grijalva, Ranking Member Bishop, and members of the Committee. 
My name is Daniel Jorjani, and I am the Principal Deputy 
Solicitor for the U.S. Department of the Interior, an agency 
charged with protecting America's landscapes and heritage, 
fulfilling unique responsibilities to the insular areas and 
trust responsibilities to the American Indian tribes and their 
members, and also overseeing the responsible development and 
use of our country's natural resources.
    At the outset, I would like to thank you, Chairman, for the 
opportunity to address the Committee's oversight interests and 
the Department's robust accommodation of the many congressional 
requests throughout this session.
    As the Department has consistently stated, we recognize and 
respect the Committee's oversight role with respect to the 
varied activities of the Department. I believe that ongoing 
communication between the Department and the Committee allows 
for a better mutual understanding of the respective interests 
of each separate branch of government.
    Importantly, this conversation can allow the Department to 
meet the legitimate oversight needs of the Committee, while 
minimizing its impact on the Department's ability to carry out 
its missions and day-to-day work.
    The judicially-recognized process of responding to 
congressional requests, known as the accommodation process, has 
its roots in the U.S. Constitution, extensive case law, and 
long-standing practice. This process is non-partisan. 
Administrations of both parties have relied upon it for 
decades, and it has been supported by top Department officials, 
both Democrats and Republicans alike.
    Within the Department, the Solicitor's Office, 
Congressional Affairs, and the Executive Secretariat work 
together with the Department's bureaus and offices to comply 
with congressional oversight requests. To manage these 
requests, the Department, according with long-standing roles, 
responsibilities, and processes relies on dedicated career 
civil servants to collect, review, and timely produce 
responsive materials. The shared responsibility by bureaus and 
offices ensures that the Department cooperates with 
congressional oversight requests to the fullest extent 
consistent with our constitutional and statutory 
responsibilities.
    The Solicitor's Office plays a critical role in the 
Department's oversight process. My office assures that 
congressional oversight productions protect the legitimate 
legal interests of the Department.
    At times, congressional committees request information that 
can implicate executive branch confidentiality interests. In 
these instances, the Department, under the leadership of 
Secretary Bernhardt, has remained dedicated to accommodating 
legitimate oversight requests, and working to provide Congress 
with the information it seeks.
    The Department has received a significant number of 
congressional requests for information and documents in the 
116th Congress. Since the government reopened in late January, 
the Department estimates that it has received at least 27 
separate oversight requests, and has worked diligently to 
respond to each as it is able.
    According to Congressional Affairs, the Department and its 
bureaus have transmitted nearly three dozen substantive letters 
to assist oversight investigations and provide a deeper 
understanding of the issues, resulting in the resolution of at 
least six separate matters.
    We have initiated productions in 17 different matters, 
several of which are now closed, while seeking to accommodate 
many other Committee requests through staff briefings and 
prioritization of requested records.
    The production of responsive information is similarly 
robust, totaling over 13,500 documents, comprising more than 
100,000 pages. Many of these productions have been accompanied 
by offers of briefings by subject matter experts and senior 
departmental officials to better inform the Committee's 
legitimate interest in information.
    The Department's pace and quality of reply to oversight 
requests is also consistent with the previous administration's 
efforts. Our commitment to accommodating Congress' legitimate 
oversight functions, while at the same time protecting 
important executive branch functions, is robust. And we have 
dedicated significant taxpayer resources to complying with 
those requests.
    Finally, the Department has requested to brief the Chairman 
on multiple occasions on the many ongoing requests of the 
Department. Although none of these offers have been accepted, 
Departmental staff have been able to meet with Committee staff 
to review requests on a few occasions, and we genuinely look 
forward to more such opportunities in the future.
    I believe a non-partisan review of the Department's 
accommodation of the Committee's oversight requests reflects 
Secretary Bernhardt's respect for Congress' authority as a co-
equal branch of government.
    The Department will continue to diligently review and 
respond to unresolved and future oversight requests.
    I look forward to answering any questions the Committee 
has, and I genuinely thank you again for the opportunity to 
testify today. Thank you, sir.

    [The prepared statement of Mr. Jorjani follows:]
 Prepared Statement of Daniel Jorjani, U.S. Department of the Interior
    Good morning Chairman Grijalva, Ranking Member Bishop, and members 
of the Committee. My name is Dan Jorjani, and I am the Principal Deputy 
Solicitor for the United States Department of the Interior, an agency 
charged with protecting America's landscapes and heritage, fulfilling 
unique responsibilities to the Insular areas and our trust 
responsibilities to the American Indian tribes and their members, and 
overseeing the responsible development and use of our country's natural 
resources.
    At the outset, I would like to thank you, Mr. Chairman, for the 
opportunity to address the Committee's oversight interests and the 
Department's robust accommodation of the many congressional requests 
throughout this session. As the Department has consistently stated, we 
recognize and respect the Committee's oversight role with respect to 
the varied activities of the Department.
    I believe that ongoing communication between the Department and the 
Committee allows for a better mutual understanding of the respective 
interests of each separate branch of government. Importantly, this 
conversation can allow the Department to meet the legitimate oversight 
needs of the Committee while minimizing the impact on the Department's 
ability to carry out its missions and day-to-day work.
    The judicially-recognized process of responding to congressional 
requests, known as the accommodation process, has its roots in the 
United States Constitution, extensive case law, and long-standing 
practice. This process has been described by one Attorney General as: 
``The accommodation required is not simply an exchange of concessions 
or a test of political strength. It is an obligation of each branch to 
make a principled effort to acknowledge, and if possible to meet, the 
legitimate needs of the other branch'' (Assertion of Executive 
Privilege in Response to a Congressional Subpoena, 5 Op. O.L.C. 27, 31 
(1981)). This process is non-partisan--administrations of both parties 
have relied upon it for decades, and it has been supported by top 
Department officials, both Democrats and Republicans alike.
    Within the Department, the Office of the Solicitor, the Office of 
Congressional and Legislative Affairs, and the Office of the Executive 
Secretariat and Regulatory Affairs, work together with the Department's 
bureaus and offices to comply with congressional oversight requests. To 
manage these requests, the Department, in accordance with long-standing 
roles, responsibilities and processes, relies on dedicated career civil 
servants to collect, review, and timely produce responsive materials. 
The shared responsibility by bureaus and offices ensures that the 
Department cooperates with congressional oversight requests to the 
fullest extent, consistent with our constitutional and statutory 
responsibilities.
    The Solicitor's Office plays a critical role in the Department's 
oversight process. My Office ensures that congressional oversight 
productions protect the legal interests of the Department, including 
our litigation and ongoing rulemaking interests. We work closely with 
the Office of Congressional and Legislative Affairs and the Office of 
the Executive Secretariat and Regulatory Affairs to collectively 
fulfill the Department's oversight obligations.
    At times, congressional committees request information that can 
implicate executive branch confidentiality interests. In these 
instances, the Department, under the leadership of Secretary Bernhardt, 
has remained dedicated to accommodating legitimate oversight requests 
and working to provide Congress with the information it seeks.
    The Department has received a significant number of congressional 
requests from several different committees for information and 
documents in the 116th Congress. Since the government reopened in late 
January 2019, the Department has received at least 27 separate 
oversight requests and has worked diligently to respond to each as it 
is able. According to the Office of Congressional and Legislative 
Affairs, the Department and its bureaus have transmitted nearly three 
dozen substantive letters to assist oversight investigations and 
provide a deeper understanding of requested issues, resulting in the 
resolution of at least six separate matters. We have initiated 
productions in 17 different matters, several of which are now closed, 
while seeking to accommodate many other Committee requests through 
staff briefings and prioritization of requested records.
    The production of responsive information is similarly robust, 
totaling over 13,500 documents consisting of more than 100,000 pages. 
Many of these productions have been accompanied by offers of briefings 
by subject matter experts and senior Department officials to better 
inform the Committee's interest in information.
    The Department's pace of reply to oversight requests is also 
consistent with the previous administration's efforts. For instance, 
data acquired from the Department's Office of Executive Secretariat and 
Regulatory Affairs, which tracks historical correspondence for the 
Department, shows that during the first 9 months of 2011, after the 
Republican majority took control of the House of Representatives and 
conducted significant oversight of the Obama administration, the 
Department received 21 congressional oversight requests and provided 38 
letters and productions of documents and information. Correspondingly, 
as noted earlier, the Department has received 27 requests and provided 
more than 42 separate letters and document productions.
    The Department's commitment to accommodating Congress' legitimate 
oversight functions and, at the same time, protecting important 
executive branch functions, is robust, and we have dedicated 
significant taxpayer resources to complying with these requests.
    Additionally, the Department has requested to brief the Chairman on 
multiple occasions on the many ongoing requests of the Department. 
Although none of these offers have been accepted, Departmental staff 
have been able to meet with Committee staff to review requests on a few 
occasions and look forward to more such opportunities in the future.
    I believe a non-partisan review of the Department's accommodation 
of the Committees' oversight requests reflects the Secretary's respect 
for Congress' authority as a co-equal branch of government. The 
Department will continue to diligently review and respond to unresolved 
and future oversight requests. I look forward to answering any 
questions the Committee has and I thank you again for the opportunity 
to testify today.

                                 ______
                                 

  Questions Submitted for the Record to Mr. Daniel Jorjani, Principal 
        Deputy Solicitor for the U.S. Department of the Interior
Mr. Jorjani did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                  Questions Submitted by Rep. Grijalva
    Question 1. You testified to the Senate Energy and Natural 
Resources Committee that documents released under the Freedom of 
Information Act, or FOIA, were not subject to a ``heightened 
awareness'' review process. In fact, you testified that process did not 
exist--that the Department does not have a heightened awareness 
process, which you reiterated in Questions for the Record. But we found 
substantial evidence to the contrary. Interior staff, including FOIA 
officers, called it a Heightened Awareness, Supplemental Awareness 
Review, or even Augmented Awareness. They describe a process of review 
reserved for the highest-ranking political appointees that get extra 
scrutiny before being released. Why did you tell the Senate ENR 
Committee that the ``heightened awareness process'' did not exist?

    Question 2. Is there a process, formal or informal, by which FOIA 
productions that somehow implicate some high-ranking political 
appointees at DOI get an additional layer of review beyond the 
awareness review process that applies to all political appointees?

    2a. If so, what is that process called?

    Question 3. You also testified under oath to the Senate that ``as a 
policy matter, I typically did not review records prior to their 
release under the FOIA.'' But, again, numerous e-mails show FOIA 
officers were ordered to include you on FOIA responses as a matter of 
policy, and that you had numerous recurring meetings with FOIA staff 
and Interior attorneys about FOIA requests and responses. You even had 
phone calls scheduled on weekends for FOIA updates. Why did you testify 
that you did not routinely review FOIA responses, when there is 
overwhelming evidence that you did?

    Question 4. You prefaced your answer with the phrase, ``as a policy 
matter.'' What does that mean?

    Question 5. Did you ever review records prior to their release 
under the FOIA as a non-policy matter?

    Question 6. According to the Interior Department's most recent FOIA 
Annual Report (2018), the median number of days it takes the Department 
to respond to FOIA Appeals is 516 days, and on average it takes 643 
days to process a single appeal. At the end of Fiscal Year 2018, the 
Department had 379 FOIA Appeals outstanding. It is our understanding 
that the Department has a single employee who processes appeals for the 
entire agency. The Department's own report makes clear that this 
process is broken and that impedes public oversight of the Department. 
Why is only one person responsible for this important function?

    Question 7. During your testimony you said that the Department 
takes congressional oversight seriously and seeks to balance the 
legitimate legislative branch interests in oversight against 
confidentiality and executive branch privileges. From whom or what 
Office do you seek guidance on how to balance these interests? Have you 
ever consulted the White House about document releases related to FOIA 
requests or oversight requests?
                  Questions Submitted by Rep. Gallego
    Question 1. On May 14, 2019, I, along with Chairman Grijalva and 
Representative Haaland, sent Secretary Bernhardt a letter expressing 
our concern with the content of the National Park Service's proposed 
rule on National Historic Preservation on Federal land (Fed. Reg. 41, 
6996-7005), especially the lack of government-to-government 
consultation that occurred before the rule was proposed. After 
receiving no answer and seeing the continued lack of meaningful tribal 
consultation on the development of this rule, on July 19, 2019, the 
Chairman, Rep. Haaland and I sent another letter to Secretary Bernhardt 
and NPS Deputy Director Dan Smith requesting:

    a. A congressional briefing from relevant, decision-making staff at 
NPS on the development, substance and status of the rule before it is 
finalized;

    b. That the Department re-evaluate the proposed rule's 
compatibility with congressional intent behind the National Historic 
Preservation Act; and

    c. That the Department suspend action on the proposed rule until 
full and meaningful tribal consultation takes place.

    It is very concerning that we have not received any response 
regarding these issues that we first brought to DOI's attention months 
ago.

    When will you respond to this inquiry and provide us what we 
requested?

    Question 2. In your testimony you mentioned your Department's 
eagerness to provide congressional briefings on Department policy.

    Can you commit to providing a congressional briefing on this matter 
before the rule is finalized as requested in the July 19, 2019 letter?

                  Questions Submitted by Rep. Huffman
    Question 1. I have repeatedly asked for the records of 
communication between the Department of the Interior and Secretary 
Bernhardt's former clients regarding the biological opinions being 
developed for the Central Valley Project. When will a copy of these 
communications be provided to the Committee?

    Question 2. Was Deputy Secretary David Bernhardt personally 
involved in the Department of the Interior's efforts to expand Shasta 
Dam in the time period from April 2017 through August 2018, including 
personal involvement in making any determinations related to section 
4007 of the 2016 WIIN Act (P.L. 114-322)? If yes, please specify all 
agency decisions, findings, and/or actions in which Mr. Bernhardt was 
personally involved.

    Question 3. Was Deputy Secretary David Bernhardt personally 
involved in negotiations with the Westlands Water District or the San 
Luis & Delta Mendota Water Authority over cost-sharing agreements for 
the expansion of Shasta Dam, prior to August 2018?

    Question 4. Were there any specific matters involving the Westlands 
Water District that David Bernhardt has been recused from during his 
time as Deputy Secretary of the Interior, or during his time as 
Secretary of the Interior? If yes, please identify all specific matters 
for which Mr. Bernhardt was recused.

                    Questions Submitted by Rep. Soto
    Question 1. Commitment from the Department of the Interior to 
generate if there are privilege logs concerning all documents that have 
been non-responsive. These include:

    <bullet> Alaska meetings during the government shutdown

    <bullet> Proposed ESA regulations

    <bullet> Mountaintop removal mining study

    <bullet> Incident of non-compliance by BLM

    <bullet> Artic National Wildlife Refuge leasing

    <bullet> DOI Reorganization plan

    <bullet> BSEE offshore leased decommissioning

    <bullet> Biological opinion on three major pesticides

                                 ______
                                 

    The Chairman. Thank you very much. And to get a better 
understanding and set the template for the discussion today 
having to do with document requests, I want to better 
understand about where our document requests are being held up, 
or getting held up. To that, I need to understand the process 
for handling them.
    To my best understanding of it, when we send a request to a 
bureau and office, one of the first steps is a meeting among a 
mix of career and political employees who decide how the 
document request is to be treated and who will collect the 
document. Is that basically correct?
    Mr. Jorjani. Yes, Chairman, that is basically correct.
    The Chairman. Based on that meeting, instructions for 
collecting responsive documents are put together. And then it 
goes out for document collection to the people who have direct 
access to the documents.
    After that a bureau contact reviews the documents that have 
been collected to make sure that they are responsive to the 
request.
    Am I correct so far?
    Mr. Jorjani. Yes, sir, Mr. Chairman.
    The Chairman. Thank you. Once the documents are collected, 
they are also sent to your office, presumably to determine 
whether there are any documents that will be withheld for 
reasons that might include potential assertion of a privilege.
    Is that still on track?
    Mr. Jorjani. Yes, sir, still on track. The Solicitor's 
Office does work with the Office of the Executive Secretary, 
the bureaus, and, above all, the Office of Congressional----
    The Chairman. Before sending the document to us, to the 
Committee, it also goes through review of the Office of 
Congressional and Legislative Affairs. Correct?
    Mr. Jorjani. Yes, sir.
    The Chairman. And what is the purpose of the review at that 
point?
    Mr. Jorjani. The Office of Congressional and Legislative 
Affairs manages all the Department's interactions with 
Congress, and certainly with our authorizing oversight 
committees.
    The Chairman. So, let me ask a question, then. Are 
political appointees, as the liaison office is, primarily 
responsible for this review? Or is the career staff principally 
responsible for the review?
    Mr. Jorjani. As you noted in your comments, this is a long 
and extensive process that involves career officials at every 
level of the process. And it is collaborative, primarily 
between the Office of the Executive Secretary, the Office of 
Congressional and Legislative Affairs, and the Office of the 
Solicitor career officials, and then the responsive bureaus.
    The Chairman. Is anybody else involved in the reviews of 
the material requested to be sent to us? The Secretary, Chief 
of Staff, Deputy?
    Mr. Jorjani. Generally, we have a process in place that 
relies heavily on career officials. Beyond that, I think there 
is interest in always maintaining positive and responsive 
reactions to legitimate congressional oversight requests, which 
sometimes does involve other elements of the Department, to the 
best of my understanding, sir.
    The Chairman. There are probably some variations here and 
there, but this is basically the way the process works for 
responding to document requests, correct?
    Mr. Jorjani. Yes, pursuant to a memorandum, the memorandum 
in a previous administration, Office of Congressional and 
Legislative Affairs oversees our interactions with Congress. 
The Solicitor and Executive Secretary play key roles in the 
process, as well. Essentially, managed, as you said----
    The Chairman. Every request is tracked along the way, so if 
you wanted to know where a request from this Committee was 
being held up, or where it was in the process, you could just 
look at the tracking system and figure that out.
    What single person is responsible--if a single person is 
responsible--for ensuring that a document request gets through 
the entire process?
    Mr. Jorjani. At the end of the day, the Office of 
Congressional and Legislative Affairs manages all our 
interactions with this Committee, with the Hill. And the 
Director of the Office of Congressional and Legislative 
Affairs, working with his senior career staff, senior career 
staff of the Office of the Executive Secretary, and the 
Solicitor's Office.
    The Chairman. OK, at what stage in the process that we just 
outlined are most of our document requests being held up?
    In other words, the Office of Congressional Affairs, is 
that where the bottleneck is?
    Mr. Jorjani. I think our responses in tracking them--and I 
would be careful of overstating how robust our internal 
tracking system is, but I would hesitate to say that the 
bottleneck is in the Office of Congressional and Legislative 
Affairs. Certainly, they prioritize robust response to 
Congress' legitimate interaction.
    Generally, I find, if there are any document slowdowns, it 
is usually in the Office of the Solicitor. That is what I have 
found in the past----
    The Chairman. So, if the documents have been mostly 
collected, then they are simply waiting to be reviewed by 
Congressional Affairs, your office before they are forwarded to 
us?
    Mr. Jorjani. It is an iterative process. It really depends 
on each individual request. If there are specific things that 
are held up in the process, I am happy to track them and get 
them back to you, working via the Office of Congressional and 
Legislative Affairs, on an expedited basis. We respect your 
oversight responsibilities.
    The Chairman. I don't have any further questions. Mr. 
Bishop?
    Mr. Bishop. Thank you again. Mr. Grijalva, can I first make 
a comment that has nothing to do with the witness here?
    I have in the past been critical about attendance at both 
markups and hearings. I have to give credit when credit is due. 
The number of Members who are here is heartening. When you have 
10 Members on your side and 8 on our side for an afternoon 
committee hearing, that is good. That is, I think, a positive 
statement. It must be your star power of drawing people out 
here.
    The Chairman. And your recommendation is under advisement 
to have all our meetings at 4 in the afternoon. I am going to 
poll the rest of the Members to see how they feel about it, but 
we will go from there.
    Mr. Bishop. I know how hard you will work for that 
proposal, too, so thank you.
    [Laughter.]
    Mr. Bishop. Mr. Jorjani, can I ask you a question? At a 
hearing that was previously held, there were Democrats on this 
Committee who considered the Obama administration's production 
of 5,000 documents and about 60,000 pages as a heroic effort.
    However, our Department, under the Trump administration has 
produced 12,000 documents that are over 100,000 pages, and you 
have done it in less than 10 months. We now have a hearing here 
where the complaint is that you all are being unresponsive and 
uncooperative. So, after producing almost twice as many 
documents in less time, what do you think is the reason for 
this apparent shift in what qualifies as responsiveness from 
the Department?
    Mr. Jorjani. Thank you for the question. I am not sure what 
the rationale for the different approach is. I will emphasize 
Secretary Bernhardt takes very seriously the legitimate 
oversight functions of this Committee, and wants us to be as 
responsive as reasonably possible, while at the same time 
protecting important executive branch confidentiality 
interests.
    Mr. Bishop. After hearing your answers to the Chairman's 
questions, I am making the assumption that you are familiar 
with the process the Department follows when it receives an 
oversight request from Congress. Can you tell the Committee 
when this particular process was implemented?
    Mr. Jorjani. This is the same process we inherited from the 
previous administration. We are aware that there were some 
challenges in the previous administration. Thus, we have tried 
to be doubly responsive to all requests from this Committee and 
other committees, as well, sir.
    Mr. Bishop. So, let me try to emphasize this, just to be 
clear. Secretary Bernhardt did not alter the way the Department 
processes oversight requests.
    Mr. Jorjani. That is correct, sir. The memo that we use, 
our approach to this, tracks previous administrations. Other 
than we try to be even more responsive.
    Mr. Bishop. Can you then walk us through the process the 
Department follows?
    Mr. Jorjani. Well, yes. Generally, as we work through the 
accommodation process, we carefully consider the Department's 
limited resources, but also the incredible importance of 
respecting legitimate legislative branch oversight functions, 
as well as our myriad statutory obligations and court 
deadlines.
    We attempt to handle all oversight requests using the same 
process used by the previous administration to respond to 
congressional requests. Offices and bureaus within the 
Department work, as the Chairman noted, to facilitate the 
review, collection, and timely production of responsive 
material to Congress. DOI leadership, including the Office of 
the Solicitor, relies on dedicated career civil servants to 
perform the review, collection, and production of responsive 
materials.
    Mr. Bishop. Would you consider multiple-document 
productions in response to a congressional inquiry as 
unresponsive or uncooperative?
    Mr. Jorjani. No, I would consider multiple responses to be 
highly cooperative.
    Mr. Bishop. So, how would you describe the actions of the 
Department, when documents are produced on this rolling basis?
    Mr. Jorjani. I think the rolling basis highlights our 
desire to respond in an expedited basis out of absolute respect 
for Congress' legitimate oversight functions.
    Mr. Bishop. Let me, for the sake of the Committee, and 
allowing people to have more questions, let me yield back.
    The Chairman. The gentleman yields.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman.
    Welcome, Mr. Jorjani. We were expecting to be questioning 
the Secretary of the Interior today, David Bernhardt. 
Obviously, you are not David Bernhardt. Where is Mr. Bernhardt 
right now, that he could not join us for this testimony?
    Mr. Jorjani. I think he is in a meeting in the White House 
right now, sir. That is the only thing that would trump his 
desire to be here testifying personally himself.
    Mr. Huffman. All right. Well, maybe some of those famously 
detailed calendar entries that we have grappled with can help 
us, the ones that allude to things like meetings, with no other 
detail. We will look forward to finding out more.
    Also, if he was unavailable, the org chart would indicate 
that there is a Deputy Secretary at Interior that might have 
joined us. But there is no Deputy Secretary of the Interior 
right now, and there has been no one nominated. That position, 
like so many others in the Administration, is kind of hanging 
in limbo right now.
    But Solicitor is not bad. We are glad to have you here. It 
is, obviously, an important position. You are the legal safety 
net for the Department of the Interior. That is a big deal. You 
are the person who exists to make sure that the law is 
followed, and so it puts you in a unique position to talk about 
some of the legal work that you perform for Interior. And you 
have done that since 2017.
    So, I want to ask you, for example, have you been involved 
in the review of ethics recusals for Interior officials, 
including reviewing the advice from career ethics officials 
that they get?
    Mr. Jorjani. The Designated Agency Ethics Official, Scott 
de la Vega is the one----
    Mr. Huffman. I am asking if you have been involved.
    Mr. Jorjani. It depends on your definition of involved. The 
DAEO reports to the Office of the Solicitor.
    Mr. Huffman. Have you reviewed either the recusal or ethics 
advice given to folks like, for example, David Bernhardt, 
including during his time as Deputy Secretary? Did you review 
either the recusal or the advice given to Mr. Bernhardt?
    Mr. Jorjani. The Designated Agency Ethics Official and the 
Alternate Designated Agency Ethics----
    Mr. Huffman. That is a real clear yes-or-no question. Did 
you review either of those things, the recusal or the advice 
given?
    Mr. Jorjani. The DAEO and the ADAEO meet with the Secretary 
on a weekly basis----
    Mr. Huffman. You are not going to give me a yes-or-no 
answer.
    Mr. Jorjani. Oh, yes. Well, I am going to answer. In those 
weekly meetings----
    Mr. Huffman. Mr. Jorjani, I have a bunch of questions here. 
Let's just do the yes or no, and then let's keep it moving on. 
So, is the answer yes? I mean, I presume you are the Solicitor, 
you are going to see these documents, aren't you?
    I have Mr. Pendley's ethics recusal. You are copied right 
on it. Can we just stipulate that you review the recusal and 
also the ethics advice that these officials get?
    Mr. Jorjani. I want to be careful how I phrase that. The 
DAEO and the Alternate DAEO are the ones that perform the 
advice of ethics counsel. When you are asking about Secretary 
Bernhardt, at least on a weekly basis the Secretary----
    Mr. Huffman. All right, this is a little bit evasive, sir, 
I am sorry to say.
    But let me ask you a very specific question. I have here 
the ethics recusal for Deputy Director Pendley. It lists a 
number of recusals that apply only for 1 year, including 
Garfield County and Kane County, Utah.
    Why does Mr. Pendley only get a 1-year recusal, instead of 
the standard 2-year recusal, under the Trump's ethics pledge 
for those clients?
    Mr. Jorjani. The 1-year recusal process is what is set 
forth in the regulations. The broader, 2-year recusal process--
--
    Mr. Huffman. Right.
    Mr. Jorjani [continuing]. In paragraph 6----
    Mr. Huffman. That is the Trump pledge.
    Mr. Jorjani [continuing]. Trump's ethics pledge. Regarding 
the specific parameters of Mr. Pendley's recusal and his ethics 
agreement, I would direct those questions to the Deputy Agency 
Ethics Officials.
    Mr. Huffman. Well, you are the Solicitor of the Department 
of the Interior. There is no one better to answer a very 
specific legal question on something like this than you, and we 
have you today.
    So, here it is. I have a Trump ethics pledge, and I have it 
right here. It clearly defines when a 2-year ethics pledge 
ought to apply, and it applies to any former clients, period.
    Then there is a separate 1-year situation that you default 
down to if you were an employee of a government agency.
    Was Mr. Pendley an employee of those counties? You know the 
answer.
    Mr. Jorjani. [No response.]
    Mr. Huffman. Do I need to answer for you? He was not. They 
were clients.
    Mr. Jorjani. I believe he worked for----
    Mr. Huffman. They were clients.
    Mr. Jorjani [continuing]. The Mountain State Legal 
Foundation.
    Mr. Huffman. Yes, and so that makes them clients. That 
should have been a 2-year ethics recusal.
    Mr. Jorjani, you are an astute and scholarly lawyer. I know 
you appreciate that words matter. And if you have been 
misreading or misapplying the Trump ethics pledge as it 
pertains to Mr. Pendley, I have to wonder if you have not 
either been misreading or misapplying it as it pertains to Mr. 
Bernhardt, because he also has some clients that you have given 
a 1-year recusal to, former clients, instead of the 2-year that 
ought to apply. Isn't that true?
    Mr. Jorjani. This is why the Secretary's obsessive focus on 
ethics reform has been so incredibly significant, starting----
    Mr. Huffman. Oh, it has been obsessive, all right.
    Mr. Jorjani. Starting with the hiring of a----
    The Chairman. Thank you.
    Mr. Huffman. I will yield back.
    The Chairman. Let me turn to Mr. McClintock.
    Mr. McClintock. I thank you, Mr. Chairman.
    Mr. Jorjani, I think we all agree that oversight is not 
only legitimate, but it is a central role of the Congress. And 
the production of materials pursuant to that oversight 
responsibility has been a continuing problem spanning several 
administrations.
    I understand executive privilege assertions. I understand 
when there are partisan fishing expeditions that are demanded 
of you. But, certainly, where there are bipartisan requests 
made, it seems to me that needs to be a top priority of the 
Department.
    My request of you would be--please don't use the previous 
administration as a model of what to do. I would strongly urge 
you to use the previous administration as a model of what not 
to do. It was infuriating for Republicans under the Obama 
administration, it is obviously equally infuriating for the 
Democrats today.
    And there are many of us on the other side of the aisle 
that may not share the Democrats' policy positions, but do 
recognize the role of oversight, and are frustrated when 
legitimate requests, particularly bipartisan requests, are made 
and not answered in full and expeditiously. So, as you are re-
crafting these policies, I would strongly urge you to keep it 
in mind.
    And with that, I would like to know exactly how are you 
planning to restructure your review process.
    Mr. Jorjani. Thank you for the question. I agree, the 
accommodation process should be a non-partisan process, where 
the executive branch and the legislative branch treat each 
other respectfully, as we try to get to an outcome that 
respects the interests of both legislative and the executive 
branch.
    I don't see us necessarily retooling the process. I think 
we have demonstrated a robust effort to be responsive to the 
legitimate interests of the legislative branch. However, now 
that I have been confirmed as Solicitor, if there are any 
specific requests that you feel are not receiving suitable 
attention, I commit to personally paying attention to them, and 
making sure we drive these things forward in a manner that 
respects your legitimate oversight needs.
    Mr. McClintock. I appreciate that. And while we are talking 
about oversight, what can we do to strengthen the oversight of 
the multitude of grants that we routinely pass out to NGOs 
around here in the resources field?
    We had a Water Subcommittee meeting yesterday in which I 
raised the same issue that the Ranking Member just raised. It 
is the U.S. taxpayer funds going to NGOs like the WWF that have 
been charged with channeling these funds to support thugs and 
gangs that have raped, murdered, and pillaged in other 
countries. We all tsk-tsk'd about it for a moment, and yet I 
think we are poised to send them even more money. There seems 
to be no review of these grants, how these grants are used by 
the NGOs.
    What can we do to strength that, both within the 
Administration and within the Congress?
    Mr. Jorjani. Thank you for the question. I would like to 
say thank you to the legislative branch, particularly the 
Minority and Majority of this Committee, for highlighting the 
abuse of that grant-making process.
    Under the leadership of Assistant Secretary Susan Combs, 
new protocols are being put in place to ensure that these--this 
is a perfect example of oversight creating value, highlighting 
these potential misuses of DOI dollars.
    And, as you have noted, this is an example of where DOI can 
and should do better, and we need to put even further protocols 
into place. But thank you to the Committee for highlighting 
this problem.
    Mr. McClintock. Well, we all have to do better. And as I 
watch these massive grants going out with very little direction 
and virtually no oversight, it concerns me greatly. Not only 
are we wasting money, but I think that we are funding some very 
bad things around the world, as well, simply because nobody is 
paying any attention.
    Mr. Jorjani. Again, thank you for raising that. I commit, 
as soon as I get back to the office, I am getting additional 
material on this so we can figure out not just on these 
specific grants, but other methods to put into place protocols 
to make sure this doesn't happen again in the future.
    Mr. McClintock. And it may be something that is simply 
endemic to grants, and maybe we ought to be just doing a lot 
less of that. If the government needs something done, and we 
can't do it ourselves, we send out for bids, get the lowest 
possible bid, hire somebody to go do it, but stop just throwing 
money around because it feels good.
    Mr. Jorjani. Again, thank you for your thoughts on this. 
The Department welcomes further direction from the Committee on 
this important matter.
    The Chairman. Mr. Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair and Mr. Jorjani. I 
appreciate your taking the time to be here today. I am 
especially pleased because I have had a question that I have 
wanted to ask you now for almost 2 years. And today I have this 
great opportunity to do that.
    I want to ask you about the renewal of the mining leases 
right next to the Boundary Waters Wilderness in Minnesota. 
These are two leases that the Obama administration had canceled 
in 2016.
    In December 2017, when you were the Principal Deputy 
Solicitor, you wrote an opinion that overturned President 
Obama's 2016 legal memo. Your opinion concluded that the Obama 
administration had no right to cancel the Boundary Water 
leases. In your opinion you state, ``The historical record of 
the 1966 lease implementations show that production was not 
made a condition of renewal.'' I repeat, you wrote that 
production was not made a condition of renewal.
    These leases are over 50 years old, but they have never 
entered production. And you said that doesn't matter.
    Do we have a slide coming up?
    [Slide.]
    Dr. Lowenthal. I am going to show you the press release. It 
is hard to see, but I will read it to you. This is the press 
release issued by the Department of the Interior from the day 
that they were released. The original is in 1966, when the 
Interior said that the government grants leases for nickel and 
copper mining.
    As you can see by the yellow line that is there, it says 
they grant mining rights to the company for 20 years, renewable 
for 30 years at 10-year intervals, if the property is brought 
into production within the initial 20-year term. And this comes 
from the Department of the Interior, it is their press release 
signed on June 14, 1966.
    So, I have to ask you. Wouldn't you agree that this press 
release contradicts your argument that production was not made 
a condition of renewal?
    Mr. Jorjani. No, I would not agree with that. When you 
examine contracts you look at the terms of the contract. And 
our interpretation of that M-Opinion was----
    Dr. Lowenthal. Of this line right here? It says from the 
Department of the Interior itself. We did not put it out. If it 
was this Committee that put it out, that would be one thing. 
But the Department that put it out said it has to be brought 
into production within 20 years. You don't see that 
contradiction?
    Mr. Jorjani. First, I would like to thank the 
Representative for the question. If in the future you have 
questions for the Office of the Solicitor, please don't wait 
2\1/2\ years via the Office of Congressional and Legislative 
Affairs. I am happy to meet with you----
    Dr. Lowenthal. I spoke about this 2\1/2\ years ago in this 
Committee.
    Mr. Jorjani. Well, I am happy to have the opportunity to 
walk you through the M-Opinion.
    Fortunately, the legal opinions of the U.S. Department of 
the Interior are not driven by press releases issued on June 
14, 1966.
    Dr. Lowenthal. Right. So, you are saying that your opinion 
in 2017 more accurately reflects the intent of the leases than 
the press release issued on the same day as the leases were 
developed?
    Mr. Jorjani. Thank you for the question. It is an 
interesting matter of contractual interpretation. That would 
not typically rise to the level of an M-Opinion, which are 
legally binding, significant documents upon the entire U.S. 
Department of the Interior.
    Working closely with career lawyers in the U.S. Department 
of the Interior Office of the Solicitor, particularly in the 
Division of Energy and Mineral Resources, they agreed this 
should never have been an M-Opinion.
    Dr. Lowenthal. Let me just--I understand that. I have 
little time left.
    Mr. Jorjani. And I think there is a lot of----
    Dr. Lowenthal. But I would like to say--this is my time--
that a simpler interpretation may be that the Administration 
wanted the leases renewed, regardless of the history, the law, 
and common sense.
    And the last question I will ask you is to what extent was 
the White House involved in the BLM's decision to reinstate 
these leases?
    Mr. Jorjani. To the best of my knowledge and recollection, 
very limited. Most of this was driven by--well, actually, the 
original review of going back to M-Opinions, regulations, 
policies of the previous administration, it was driven by a 
memo issued by the then-Chief of Staff.
    But as a general review, when we arrived at the U.S. 
Department of the Interior, we looked at a number of the M-
Opinions that were issued in the last days of the previous 
administration.
    Dr. Lowenthal. So, it was a review process that made this? 
It had nothing to do with the meetings that the Chilean owner 
of the Twin Metals mine in the months leading up to the 2017--
your Solicitor opinion was to the fact that the same owner was 
Jared Kushner and Ivanka Trump's landlord in DC.
    With that, I yield back.
    The Chairman. The gentleman yields.
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you, Mr. 
Jorjani, for your presence here today and for your testimony.
    I just want to go back. I think this has been clarified, 
but you did say that the process by which requests from 
Congress are met is dictated by a memorandum at the Department 
that was from the last administration?
    Mr. Jorjani. That is correct, and we have a new iteration 
of the memo from December 2018 that essentially tracks the 
memorandum from Mr. Beaudreau, the previous Chief of Staff. I 
am happy to make that available to any member of the Committee.
    Mr. Westerman. And you also said that the majority of the 
activities are performed by career employees at the Department?
    Mr. Jorjani. That is correct, sir.
    Mr. Westerman. So, not necessarily political employees, but 
career employees that have worked for both Republican and 
Democratic administrations.
    Mr. Jorjani. We are incredibly fortunate to have superior 
career employees in the Office of the Executive Secretary, at 
the Office of Congressional and Legislative Affairs, and the 
Office of the Solicitor that manage this, for the most part, at 
the career level. Yes, sir.
    Mr. Westerman. So, Chairman Grijalva made his opening 
statement. He showed all the blank pages that were sent over.
    I can say to my friends across the aisle I felt your pain, 
because we saw similar things happen under the previous 
administration. And, as much as paper comes from trees, and we 
need to manage our forests more, and I appreciate that the 
Department uses a lot of paper, I mean, not as a Republican or 
a Democrat, but as a Member of Congress we should really find 
that unacceptable, regardless of who the administration is, 
that we ask for data and we don't get the information that we 
request.
    And we won't solve the issue by making political pot shots 
in the Committee hearing here. At some point, we will have to 
decide whether we want to be Members of Congress, of the 
legislative branch, and do what this Committee is set up to do, 
and it is to have oversight.
    I mean, if you could use the term, there should be 
bipartisan butt hurt here. We should all be offended that, when 
we ask the Administration, regardless which administration it 
is, for information, that we don't get that in a timely manner 
and get it in a format that we can use.
    I know you are new to this job, and you offered to take 
recommendations from Congress on how we could make that process 
better, so I hope we can really work constructively to come up 
with a better process, so that some day when we are asking for 
information, that we will get that information on a timely 
level, too, because I think we deserve that, as members of this 
oversight committee, and as Members of Congress.
    I yield back.
    The Chairman. I couldn't agree more with you, Mr. 
Westerman. I think your point is well taken.
    Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. I yield my 
time to Mr. Huffman from California.
    Mr. Huffman. I thank the gentleman. I did want to continue 
this thread, Mr. Jorjani, about the Trump ethics pledge, which 
could not be more clear in a very important area of 
distinction. That is the distinction between former clients, 
which are defined--lawyers, consultants, contractors, the 
usual--you know how that works, you are a lawyer--and former 
employers.
    And you know that the employer-employee relationship is 
very specific. It is actually laid out in quite detail and 
defined in the Trump ethics pledge. And it is true that if a 
former employer was a state or local government, this extended 
2-year pledge under the Trump administration would not apply, 
and that official would default back to the 1-year recusal. But 
if it was a former client, any first-year law student can see, 
just by reading this document, it is a 2-year recusal.
    And, Mr. Jorjani, I need to ask you why, on a recusal for 
Mr. Pendley that you are copied on--presumably, as the 
Solicitor, a top legal apparatus at the Department of the 
Interior, that you are responsible for at some level--there is 
only a 1-year recusal for these counties that I mentioned to 
you that were clients, not employers of this man.
    How do you explain that?
    Mr. Jorjani. Thank you for the question. I did momentarily 
freeze when you referred to the first year of law school. It 
brought back a host of bad memories.
    Mr. Huffman. I really don't have a lot of time, Mr. 
Jorjani.
    Mr. Jorjani. Oh, sorry----
    Mr. Huffman. I understand.
    Mr. Jorjani. The short version is on the interpretation of 
the Trump ethics pledge, interpretation of 502, the relevant 
regs and statutes, I defer entirely to the Designated Agency 
Ethics Official and the Alternate Designated Agency Official, 
both who are non-partisan, career civil servants----
    Mr. Huffman. All right, so you are not responsible if they 
misapplied--clearly misapplied--that provision, resulting in a 
1-year shortening of a recusal pledge that was supposed to give 
us an assurance that ethics were serious for this 
administration? You are not responsible on any level?
    Mr. Jorjani. I would welcome the opportunity to follow up 
on this very specific issue, if you think we have 
misinterpreted----
    Mr. Huffman. It won't take long to follow up. You just have 
to read the recusal. I have it right here. You are copied on 
it, so you have seen it before. And then you have to read two 
quick provisions in the ethics pledge. This is really clear-cut 
stuff.
    Now, I guess the question is, if this was misapplied, and 
folks started making decisions, participating on matters that 
they should have been recused from--and we know they did, at 
least in the case of Mr. Bernhardt, who similarly gave himself 
a 1-year recusal for his former client, the Westlands Water 
District, who was never his employer, it was former client--it 
should have been 2 years, he gave himself 1 year in the 
recusal, and immediately started participating on matters 
pertaining to the Westlands Water District when that 1-year 
period was up. But he shouldn't have.
    So, the question is, as Solicitor of the Department of the 
Interior, what are you going to do about that? Are you willing 
to pledge to this Committee that you will go back and review 
all decisions, especially critical decisions that Mr. Bernhardt 
and potentially other officials have participated in, where 
they should have been recused?
    Mr. Jorjani. Thank you for the question. I take very 
seriously the ethics program in the U.S. Department of the 
Interior, and I have allocated significant resources to it.
    I think one of the best hires the Department----
    Mr. Huffman. No, no, no. No narratives, sir. I asked for a 
specific pledge. If this was misapplied, if participation 
occurred when there should have been recusal--you are the 
Solicitor of the Department of the Interior--are you going to 
do something about it?
    Mr. Jorjani. Thank you for the question. I prize and pride 
myself on working collaboratively with the Designated Agency 
Ethics Official.
    In your role in providing legitimate oversight of our 
executive branch agency, you have raised a legitimate issue. 
You have asked me to commit to go back to the DAEO and----
    Mr. Huffman. I know what I have asked you. The whole world 
knows what I just asked you. You don't need to repeat it. You 
are burning my time.
    Mr. Jorjani. Oh, sorry. Yes, I commit to going back and 
sitting down with Scott de la Vega and Heather Gottry to go 
through Mr. Pendley's and Secretary Bernhardt's recusal 
agreement.
    Mr. Huffman. And any participation Mr. Bernhardt had on a 
specific matter, or anything else involving Westlands between 
the 1-year and 2-year mark, when he should have been recused, 
you are willing to report back to this Committee on whether you 
think decisions are valid, whether there should be some 
remedial action, whether those actions can even stand, given 
that he should have been recused? Will you report back to this 
Committee on that?
    Mr. Jorjani. Out of an abundance of caution, you say 
``specific matter.'' Are you referring to particular matters--
--
    Mr. Huffman. I am referring to anything that you find 
should have been recused, but he didn't because it was a 1-year 
when it should have been a 2-year. You know what I am saying.
    Mr. Jorjani. I think you have asked a legitimate question.
    Mr. Huffman. Thank you, sir. I yield back.
    The Chairman. Mr. Hice. You are recognized, sir.
    Dr. Hice. Thank you, Mr. Chairman. And may I ask you a 
question, Mr. Chairman?
    The Chairman. Yes, sir.
    Dr. Hice. The 12,000 pages--were any of those helpful, or 
was the entire 12,000 pages blank like what we saw?
    The Chairman. They were totally useless.
    Dr. Hice. So, the entire 12,000 pages? Thank you, Mr. 
Chairman.
    Mr. Jorjani, I, like my friends on the other side of the 
aisle, am highly offended that you would send 12,000 pages of 
nothing, and then try to appear as though your Department is 
being cooperative.
    As has already been mentioned, we have dealt with this. I 
know on the Oversight Committee we dealt with this with the 
previous administration, receiving thousands and thousands of 
pages redacted to the point of absolute worthlessness. And it 
is offensive that you would do that. I would ask that when 
there is a request, if you are going to send information, make 
it useful.
    That being said, you mentioned in your opening statement 
that the Department did offer to provide briefings to the 
Committee to help explain the status of the productions. Will 
you commit, and do you commit, to continue working with 
Congress, even when, as you said, the Chairman did not meet 
with you, but that you will continue to do what you can to meet 
with this Committee and to provide necessary information?
    Mr. Jorjani. Yes, sir. I absolutely and fully commit to 
doing so.
    Dr. Hice. OK. Well, while we are on this, do you have a 
comment on the 12,000 wasted pages? Why would you do something 
like that?
    Mr. Jorjani. Two points. I think we produced 13,500 
documents, which is over 100,000 pages, of which it sounds like 
a certain number of them have been either blank or in some form 
of Wingdings. My understanding is, out of a desire to be as 
responsive as possible, and to get you complete documents, due 
to Excel spreadsheet formatting, sometimes you get excess pages 
at the end of a document.
    Dr. Hice. Did no one look at them?
    Mr. Jorjani. I am sorry. What is that, sir?
    Dr. Hice. Did you not look at them, or anyone--I mean 
12,000 pages is a lot of pages of nothing.
    Mr. Jorjani. I think there was a dialogue that it might 
appear that we were being less than fully cooperative if we are 
pulling back documents that appear to be part of a larger 
request.
    I commit to doing better. And whether it is the saving of 
trees or wasted time of the Committee, I agree that is probably 
not the best practice, and I commit to reducing it in the 
future.
    Dr. Hice. I would say it is probably not, as well.
    Coming back to the attempts you had to have meetings and 
briefings with committee and chairmen, or whomever you could 
have a meeting with, explain the benefits that would be, the 
outcome of those kind of briefings.
    Mr. Jorjani. It would really depend on the preferences of 
the Member of Congress. But we would----
    Dr. Hice. Well, doing oversight is what we are trying to 
do.
    Mr. Jorjani. Oh, a classic example is the great work by 
this Committee highlighting issues with our grants, raising a 
problem to our attention, allowing us to figure out what was 
going on, and to be responsive to the Committee. In this case, 
whether it is briefings on whatever topic you so desire, we 
would provide access, not just to the Office of Congressional 
and Legislative Affairs, but also to subject matter experts in 
the relevant bureaus.
    Dr. Hice. OK. Mr. Chairman, with that I will yield back my 
time. Thank you.
    The Chairman. Thank you. I recognize Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chairman. On July 16, the 
Department of the Interior notified Congress of intent to move 
the Bureau of Land Management staff out of Washington, DC, 
where all other Federal land management agencies reside. 
Despite concerns from numerous lawmakers, including many on 
this Committee, the Department moved forward with finding a new 
space in Grand Junction, Colorado, a space that is shared with 
various oil and gas corporations and lobbies.
    Not only did the Department forge ahead, despite Congress' 
concerns, but according to testimony we heard from Chairman 
Small of the Ute Indian Tribe, you also failed to carry out 
legal obligations to consult with Indian tribes before doing 
so.
    Yes or no, can you commit to producing the documents before 
any staff begins to move their offices out of Washington, DC? 
Specifically, the cost/benefit analysis and other types of 
analysis.
    Mr. Jorjani. If the Committee requests the documents, then 
we have a process in place that would allow us to be responsive 
to legitimate oversight requests from this Committee, while at 
the same time protecting important executive branch 
confidentiality and interests.
    Mr. Gallego. From what I understand, we did request those 
documents and we have not received anything in return. This 
Committee has actually been pushing for this for quite a while.
    To your knowledge, has there been a position-by-position 
cost/benefit analysis?
    Mr. Jorjani. My apologies, sir. Could you repeat the 
question, please?
    Mr. Gallego. To your knowledge, has there been a position-
by-position cost/benefit analysis?
    Mr. Jorjani. In my capacity as the Principal Deputy 
Solicitor within the Office of the Solicitor, I don't track 
CBAs done within respective bureaus.
    Mr. Gallego. To your knowledge has there been any effort to 
systematically assess the impact on the workforce, should they 
move to Grand Junction, Colorado?
    Mr. Jorjani. Again, I apologize, because I want to be 
responsive, but I am not----
    Mr. Gallego. Is there documentation of Interior's 
consultation with sovereign tribal nations?
    Mr. Jorjani. The importance of consultation with the 
sovereign tribes is incredibly important.
    Mr. Gallego. Yes, I know that. But is there documentation 
of Interior's consultation with sovereign tribal nations?
    Mr. Jorjani. I just want to emphasize, because it is our 
sovereign responsibility to consult with the tribes in certain 
situations.
    Regarding what BLM has done for the process, I will have to 
work with the Bureau of Land Management and get back to you, 
sir.
    Mr. Gallego. Has an impact analysis been done to determine 
effects on the diversity of Interior's workforce if they move 
to Grand Junction, Colorado?
    Mr. Jorjani. I am sorry, sir, could you repeat that 
question?
    Mr. Gallego. Has an impact analysis been done to determine 
the effects on diversity of the Interior's workforce, should 
they move to Grand Junction, Colorado?
    Mr. Jorjani. I want to be careful with your time, so I will 
simply say, consistent with my previous response, I will work 
with BLM to get that answer to you.
    Mr. Gallego. OK. This Committee asked for a witness who 
could answer these questions. Clearly, that is not happening 
right here. Since Interior sent someone who couldn't answer 
questions, it seems like Interior is trying to keep this 
reorganization under wraps. We don't have documentation, we 
can't even have simple questions asked. If you can't commit to 
producing all of these documents we have asked for--I am sorry, 
let me back up.
    Do you commit to actually producing these documents that we 
have asked for, and this data that we have asked for?
    Mr. Jorjani. Absolutely. I commit to working with the 
Office of Congressional and Legislative Affairs to get you the 
documents you have requested in a manner that protects the 
executive branch confidentiality interests, while at the same 
time respecting your legitimate non-partisan oversight request.
    Mr. Gallego. So, do you believe, if I am asking for a 
position-by-position cost/benefit analysis, do you believe, in 
your opinion, that is going to somehow be--will we have access 
to that, or is that going to be somehow impaired because of 
some executive privilege that they are going to evoke?
    Mr. Jorjani. I want to be careful and emphasize we adhere 
to the process that we have across all administrations. But you 
are asking important questions. I will speak to Deputy Director 
Pendley and the Office of Congressional and Legislative Affairs 
promptly.
    Mr. Gallego. What is the timeline that you think this is 
going to be occurring in?
    Mr. Jorjani. Do you have the date when the request was sent 
in, sir?
    Mr. Gallego. I could have my staff work on it. Yesterday--
so we could have my staff work on that with you, too.
    Mr. Jorjani. Yes, sir, and we will----
    Mr. Gallego. The other concern I still have is also the 
requests about the potential lack of consultation when it comes 
to tribal nations. This is an ongoing concern, has been an 
ongoing concern with our tribal nations, obviously not just 
this reorganization, but other actions with the Department of 
the Interior. So, please make sure you also provide 
documentation if it occurred, if there has been consultation 
with tribal nations.
    At this point, speaking to at least some of the tribes that 
are involved in this move, or will be affected by this move, 
they have not been consulted with, so that is why we are asking 
if there is some other level of consultation that we have not 
heard of.
    So, in addition, while you are looking for those documents, 
please also provide us with information where there was some 
tribal consultation.
    Thank you, and I yield back my time.
    The Chairman. Thank you, Mr. Gallego.
    The gentlelady, Mrs. Radewagen.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    Mr. Jorjani, I know you are dealing with a litany of 
oversight requests, and I wanted to give you the chance to 
provide a status update and any relevant information tied to 
the nine particular oversight requests that the Majority 
indicated they wanted to discuss today. Do you have a list of 
these requests in front of you?
    Mr. Jorjani. I have an over-arching list, except for the 
one that was just delivered yesterday, of all the requests that 
have been submitted to this Committee so far, and I am happy to 
provide the written document to the Committee, to make sure the 
Committee is fully informed on the status of those requests.
    Mrs. Radewagen. Can you briefly go through each of these in 
the next few minutes to provide a status update, details about 
the proposed construction of the Villages at Vigneto 
development, the relocation of the Bureau of Land Management, 
drafts of three Endangered Species Act rules, information about 
biological opinions related to the impact of pesticides, 
information about a mountain-top removal mining study, a 
request into the Boundary Waters Twin Metals leasing decisions, 
decisions related to monument designations, inquiries about the 
Arctic National Wildlife Refuge oil and gas lease sale program, 
and requests for information about California biological 
opinions for water deliveries?
    Mr. Jorjani. To go through each of those, I think, would 
take a significant amount of time. You have highlighted a 
number of very important policy issues, from California water, 
to bi-ops, to the villages. I commit to working with the 
Representative and with the Full Committee in a robust manner 
to get you the information that you require to fulfill your 
legitimate oversight needs in a manner that protects important 
executive branch confidentiality interests.
    Mrs. Radewagen. So, it appears that the Department has been 
sort of working toward full responses to these items, and many 
of them, some of them, have already received responses. Is that 
correct?
    Mr. Jorjani. That is my understanding, yes.
    Mrs. Radewagen. In any of these instances, does the 
Department have intentions to illegally hide information from 
this Committee?
    Mr. Jorjani. Thank you for the question. No, absolutely 
not. There is no desire to do anything that would be non-
compliant, illegal, or inconsistent, even, with previous 
practice or previous administrations.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    The Chairman. The gentlelady yields. Ms. Haaland, the time 
is yours.
    Ms. Haaland. Thank you, Chairman. Thank you, Mr. Jorjani, 
for being with us this afternoon.
    On March 6, the Committee requested Bureau of Safety and 
Environmental Enforcement Director Scott Angelle's--pardon me 
if I didn't pronounce it correctly--cell phone records. When we 
got those about 6 weeks later, we noticed a difference between 
the version we got and a version that was released under the 
Freedom of Information Act. I would like to put those two on 
the screen.
    [Slide.]
    Ms. Haaland. I don't know if you can tell the difference, 
but the one that we received is on the left. That was the 
congressional piece that we got. And the one on the right is 
what was released under FOIA.
    Why did the Department redact these documents when sending 
them to Congress, when clearly there was no valid reason to 
redact them under FOIA?
    Mr. Jorjani. Looking at these documents, it looks like the 
Department made a mistake, and that the team of lawyers or 
officials who were doing FOIA response are different from the 
ones doing congressional response. And in this circumstance I 
would like to think that we got back to you quickly with the 
complete set of materials.
    But, again, that is an oversight on our part, for which I 
apologize.
    Ms. Haaland. We didn't get the official cell phone bills 
for the entire time period we asked for.
    Mr. Jorjani. I will work to make sure that happens.
    Ms. Haaland. Starting with November 2018 we just got a list 
of numbers. Here is what we received for all the calls in 
December 2018, those right there.
    And here is what we later found out was released through 
FOIA to the group American Oversight--the entire December list, 
well, starting with November and into December.
    This is over 60 calls from December 1 through December 17, 
far more than the 12 calls that we received over that period.
    So, as you can see, the Department provided a response to 
Congress that was blatantly incomplete, and has not corrected 
it. Is this simply incompetence, do you think, on the part of 
the Department, or do you think they are purposefully 
withholding information from us?
    Mr. Jorjani. I wouldn't like to use the word 
``incompetent'' on the part of the team doing the congressional 
responses. Clearly, though, Congress has an important oversight 
responsibility.
    I am pleased to see that the other response was more 
complete, and we need to do a better job of helping Congress 
fulfill its legitimate oversight responsibilities.
    Ms. Haaland. Are you thinking of how that might be done?
    Mr. Jorjani. Not at this specific moment, but I commit to 
getting back to you.
    Ms. Haaland. Thank you. I will take that commitment as a 
true desire to right these wrongs.
    My next question--I still have a little bit of time left--
DOI has frequently held up the number of documents you have 
sent this Committee to demonstrate your responsiveness to 
congressional oversight, not including a document production 
that arrived last night: 29,414 of those pages and 3,437 of 
those documents were in response to our requests for further 
information on President Trump's illegal reduction of our 
national monuments.
    But it is worth taking a closer look. As we have noted, e-
mails from your staff suggest these documents went through 
extensive political reviews, yet we received 17,864 pages of e-
mails that did not meet any of the requested criteria.
    We have done our best to be here to work with you, and we 
appreciate there have been continued productions for this 
request. But there are still many questions about this process 
that we need to dig into further to understand what was behind 
these monument reductions. And I have a very strong interest in 
this because it affects the well-being of Indian tribes across 
the country.
    I know we asked for a lot in that document request, but the 
documents have been very slow in coming. In addition to having 
a high proportion of empty padding, this Committee has tried 
without success to get the DOI to commit to timetables for 
productions. Are you prepared to give us a production deadline 
for the monuments request today?
    Mr. Jorjani. I am not prepared to give you a deadline 
today.
    You have highlighted an important point. We do have FOIA, 
congressional oversight, and robust ongoing litigation on this 
specific matter. But working in the accommodation process, I 
commit to getting you everything I can, while respecting 
executive branch confidentiality interests.
    Ms. Haaland. I appreciate that. There is one more thing 
that kind of troubles me, and Mr. Westerman kind of alluded to 
it, and that is how this process works.
    When you submit these documents, is it just all electronic 
that you are putting onto a disk, or do you print them out 
first and then scan them? Like, all the documents with the 
blank Excel spreadsheets and the Wingdings and all of those 
things, are those printed out first before they are actually 
scanned and then put onto a disk?
    Mr. Jorjani. I think it varies, depending on each 
individual production. The notion of sending you 12,000 blank 
pages, even with the best of intentions to make sure it was a 
complete response, is unacceptable. And I will be making sure I 
pay personal attention that it does not happen again.
    Ms. Haaland. Because it is troubling to me--thank you, I am 
sorry, Mr. Chairman, I yield.
    The Chairman. Thank you.
    The gentleman--the floor is yours.
    Mr. Webster. Thank you, Mr. Chair. I have a question. You 
just brought up litigation. Are there constraints because of 
ongoing litigation on the amount of data you can release?
    Mr. Jorjani. Moderating and monitoring the litigation risk 
for the executive branch certainly plays a role, as we balance 
the interest of what to release and what not to release.
    However, we are aware and seek to be even more responsive 
to the oversight requests of this Committee.
    Mr. Webster. Are there any other restraints that would keep 
you from giving out data that would be not self-imposed, but 
just imposed upon you?
    Mr. Jorjani. Well, generally, sir, as part of the 
accommodation process, as set forth with the balance of powers 
between the executive branch and the legislative branch, 
through the accommodation process we seek to work closely with 
the legislative branch to make sure we are fulfilling your 
legitimate legislative oversight needs.
    Mr. Webster. What are the goals of the Department in 
responding to this Committee's request?
    Mr. Jorjani. The goals are to absolutely respect the 
priorities and prerogatives of this Committee, to help you 
fulfill your legitimate oversight requests, while at the same 
time balancing legitimate executive branch confidentiality 
interests, pursuant to past practice and accommodation over 
centuries between the legislative and executive branches.
    Mr. Webster. Do you know if you or anyone else is 
purposefully restraining documents that normally could come 
here, normally flow here, or slowing them down?
    Mr. Jorjani. We have a process in place that relies on 
seasoned career experts to ensure that we are squaring every 
corner, and that we are----
    Mr. Webster. OK, and so, in using that process, can it be 
purposely used to slow down the delivery of documents, or is it 
following normal course?
    Mr. Jorjani. I think--and with awareness of the blank pages 
that were turned over, the tens of thousands of documents and 
the hundreds of thousands of pages that we have already 
submitted demonstrates a good-faith effort on the part of the 
Office of Congressional and Legislative Affairs to respect the 
legitimate interests of the legislative branch.
    Mr. Webster. Could you speak to the Secretary and your 
commitment to transparency and responsiveness to congressional 
requests?
    Mr. Jorjani. The Secretary and the Office of Congressional 
and Legislative Affairs have absolutely prioritized working in 
good faith with members of this Committee across both aisles.
    Mr. Webster. Thank you very much. I yield back.
    Mr. Jorjani. Thank you, sir.
    The Chairman. Mr. Van Drew.
    Mr. Van Drew. Thank you, Chairman. And Solicitor Jorjani, 
thank you for being here.
    I guess, a little bit I feel bad for you. There are so many 
questions, and so many are questions that you can't answer. And 
that is a terrible spot to be in. And I certainly hope the next 
time we have one of these hearings that the Secretary is here, 
or that you even bring a team here, because these are complex 
questions that really require complex and thorough answers.
    And attempts at working with the staff--evidently, from 
people that I talk to--have been stalled. Phone calls are not 
timely returned, e-mails not timely responded to. A need very 
often of going back and conferring with someone else to make a 
decision, and that is obviously frustrating for everybody, and 
not the goal here of open information.
    What do you think is a reasonable timetable frame to 
produce these types of documents, in your opinion? This is your 
opinion, so you can answer this one.
    Mr. Jorjani. Rather than giving a specific timetable, I 
would prefer that the Department adhere to the process, which 
is similar to the process of previous administrations to 
respect the legitimate and incredibly important oversight 
responsibilities of this Committee and the legislative branch, 
more broadly, while at the same time protecting executive 
branch confidentiality----
    Mr. Van Drew. Thoughtfully, though, you must have a sense 
of--I mean, for example, 10 years would not be a reasonable 
timetable. You must have a sense in your head of what you would 
like, if you were on the other side of this.
    Mr. Jorjani. I think we should be prompt and respectful to 
the legislative branch. And if there are instances when anyone 
in the Office of the Solicitor is not being responsive to 
requests from this Committee, please let me know directly, and 
I will make sure, working via OCL----
    Mr. Van Drew. Well, what is prompt and respectful, just so 
that we know when to contact you?
    Mr. Jorjani. I would defer to your judgment on that, sir.
    Mr. Van Drew. I will yield the remainder of my time to the 
Chairman.
    The Chairman. Thank you very much. I appreciate it, Mr. Van 
Drew.
    Solicitor, one general question, and it is more of a 
personal request. The 2-week delay, if I, as a member of this 
Committee, were to ask for--and I do at the behest of 
Subcommittee Chairs and individual Members--document requests, 
informational requests to the Department, is that 2-week delay 
still in effect? And, if so, would it make a difference if Mr. 
Lowenthal signed it?
    Mr. Jorjani. I am sorry, sir. What was the question?
    The Chairman. The e-mail we have indicated internally that 
if I made a request, there would be a 2-week delay while they 
assessed that request. And then, after that, an additional 2 
weeks' delay, where the Office of Congressional Affairs and the 
other political appointees made some assessment as to what they 
wanted to do with it. And that 2-week delay, my question is, is 
that still in effect? Is it internal policy? Yes, that is the 
question.
    Mr. Jorjani. Thanks for the question, Chairman Grijalva. 
This is the first time I am seeing this e-mail. Any notion of a 
mandatory 2-week delay for the chairman of our oversight 
committee is incorrect, and I would be shocked if it were still 
in place, though that does appear to be dated March 14, 2019. 
So, I commit to going back and speaking to the head of OCLA 
regarding this alleged 2-week delay.
    The Chairman. I appreciate that, because--real-time 
question in terms of the process. We made a request in July 
relative to the points that Steve Spangle made regarding the 
Villages of Vigneto, a development of 28,000 homes in southern 
Arizona. And in his discussion with the press he said, ``I got 
rolled by political pressure at Interior to reverse an official 
agency decision he had made about it.'' August 18--and we then 
documented and sent you information. The circumstances really 
raises serious concerns about the potentially improper 
influence of Mr. Spangle by the attorneys within the Department 
and others.
    It has been nearly 3 months, and I just want to know. Let's 
walk through it: Have the documents been sent out for 
collection? Have the documents been collected? Has the bureau 
reviewed them? Has your office reviewed them? Has the Office of 
Congressional and Legislative Affairs reviewed them? How long 
have they been there, in this process, at this point in the 
process? And how long is it going to take to eventually get 
that documentation?
    Mr. Jorjani. Thank you for the question, Chairman. My 
records show that we received a letter on July 3. We responded 
on July 19, but we owe this Committee additional documents. I 
believe it is part of the ongoing process.
    The Chairman. We have received no documents at this point. 
And is Secretary Bernhardt personally involved in the review on 
this request? Or is Peg Romanik involved, the counsel that 
supposedly talked to Mr. Spangle? Is she involved in this?
    And I would like those answered, as well, because that 
would cause some serious concerns about their involvement, 
given that the questions are directed, in the document request, 
at both of them.
    With that, let me yield to the Acting Ranking Member, Mr. 
Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Congratulations on your confirmation, recorded vote and 
all.
    Have you been given priorities? I know you furnished over 
100,000 documents in recent months to requests made from this 
Committee. But have you been given any priorities? Obviously, 
you can't do everything at the same time.
    Mr. Jorjani. It has been, at times, a challenge to get--as 
part of the ongoing dialogue with the Committee, among this 
multitude of requests, but we are seeking, through informal 
conversation----
    Mr. Gohmert. But have you gotten priorities from the 
Majority as to which they want first?
    Mr. Jorjani. I want to be careful, because I have been in 
the role of Solicitor for 2 days now. It is possible they have 
conveyed to staff what priorities are, but to the best of my 
knowledge there hasn't been a formal prioritization put in 
place.
    Mr. Gohmert. OK.
    Mr. Jorjani. But I could be mistaken on that, sir.
    Mr. Gohmert. No, I understand. But I know when you get hit 
with as many requests as you have gotten, you just can't fill 
them all at the same time. I get that.
    With regard to--there was a lot of noise about a Democratic 
House staffer being removed from a congressional trip hosted by 
the BLM. That was back in August. The Appropriations Committee 
accused BLM of thwarting congressional oversight, and that it 
was the Trump administration's continuing pattern of 
interfering with Congress' oversight work. Do you know why the 
staffer was removed?
    Mr. Jorjani. I did not directly witness the incident. My 
understanding, though, is that the staffer and the executive 
branch employee and the legislative branch employee--well, the 
short answer is I didn't personally witness it. I understand it 
was a somewhat abusive dialogue. But I don't have direct 
knowledge, sir.
    Mr. Gohmert. The paper reported that he had the Acting 
Chief of Staff thrown out of the meeting, and bullied and 
harassed the Acting Chief of Staff.
    Mr. Jorjani. That is my understanding, sir.
    Mr. Gohmert. That was yours, as well? Yes. So, since they 
had low-level staff, it seemed like it should be OK for the 
Acting Chief of Staff to remain there to help.
    But with regard--you were grilled about the Trump 
administration's ethics pledge. Did you author that? Was that 
your work?
    Mr. Jorjani. No, sir. I did not author the Trump 
administration ethics pledge.
    Mr. Gohmert. Yes. How does the Office of Government Ethics 
interpret the ethics pledge?
    Mr. Jorjani. The Office of Government Ethics, working 
closely with ethics officials across the executive branch 
provides guideline and regular informal guidance to the 
designated agency ethics official. We work closely with OGE, as 
does our DAEO, to ensure that we are consistent with and 
complying with the ethics pledge and any guidance, informal or 
otherwise, that OGE provides.
    Mr. Gohmert. Well, you had addressed in your written 
testimony that you believe that the compliance by Interior, 
furnishing of documents being requested, was on par with the 
previous administration. Correct?
    Mr. Jorjani. Our policies are consistent with previous 
administrations. I think we have been even more robust in 
turning over both documents----
    Mr. Gohmert. Well, see, that is what I was thinking, 
because I have only been here for three presidents, but I have 
never seen the kind of stonewalling we got from the Obama 
administration. Not here, not in the Judiciary Committee. And 
there were serious crimes that had been committed, and all of 
that was covered up, and we weren't given the documentation.
    So, I was just going to encourage you--you point out that 
you are being more robust than the last administration. I would 
encourage you not to use the last administration for the 
example of how Interior should comply with requests, because 
that was the lowest bar I have ever heard of. You want to do a 
whole lot better than the Obama administration, not just 
robustly better, but a whole lot better, because that was an 
abysmal record they set.
    So, with that encouragement to you, I yield back my time. 
Thank you.
    Mr. Jorjani. Thank you, sir.
    The Chairman. Mr. Soto, you are recognized, sir.
    Mr. Soto. Thank you, Mr. Chairman.
    Mr. Jorjani, have you submitted a privilege log for all the 
document requests that have been non-responsive?
    Mr. Jorjani. I am sorry, sir, could you repeat the 
question?
    Mr. Soto. Have you submitted a privilege log for all the 
document requests that have been non-responsive? Because your--
--
    Mr. Jorjani. Do you have a specific non-response request in 
mind?
    Mr. Soto. Sure, we could go down the list. So, I assume you 
haven't done a privilege log, then. Is that----
    Mr. Jorjani. I am asking because, in my 2 days as 
Solicitor, I am not aware of privilege logs being submitted, 
but I want to be careful in how I am phrasing my responses.
    Mr. Soto. OK. I understand. So, you are not aware of one, 
which is fine. I know you are just on the job.
    Do you know what privilege is being voiced in not 
responding to documents about the Alaska meetings during the 
government shutdown?
    Mr. Jorjani. In the context of privilege, I want to be 
careful to make clear under no circumstances am I asserting, 
nor would it be appropriate for me to assert, privilege, 
whether ACP, attorney-client, DPP, executive privilege. I am 
simply asking that, consistent with previous administrations, 
that we are responsive to legitimate legislative branch----
    Mr. Soto. Well, we should know what privileges are being 
asserted. Otherwise, you could just be making it up.
    Mr. Jorjani. Out of an abundance of caution I want to make 
clear, I am not asserting privileges at this time----
    Mr. Soto. So, on the proposed ESA regulations, there was at 
least a claim of privilege for a deliberative--you know, 
security, communications deliberative. You know the main ones, 
being an attorney.
    But those regulations are now published, so how is it still 
deliberative if they are now published? I mean they have 
deliberated already.
    Mr. Jorjani. Oh, that is a very good question. After a 
regulation is published, or a document goes final, it is a 
different weighting process, weighting the different interests 
of relevant parties, because it is so important whether, in a 
Republican or Democratic administration, that there be ongoing 
dialogue and robust conversation with policy makers.
    So, if you are asking about how you weight different kinds 
of privileges after a document has gone final----
    Mr. Soto. So, for the mountain-top removal mining study--
few documents. What is the privilege being asserted there? What 
are the specific grounds?
    Mr. Jorjani. I commit to getting back to you on that 
specific request. I am aware of no privilege being asserted by 
the Department, or at least not by me at this time.
    Mr. Soto. OK. Well, that is responsive. What about 
incidents of non-compliance by BLM? What is the specific 
executive privilege or privileges, the grounds for them being 
asserted there?
    Mr. Jorjani. What was the date of that request, sir?
    Mr. Soto. It was March 11, 2019.
    Mr. Jorjani. March 11, 2019? My records show a substantive 
response on August 15, 2019. If it didn't meet your standards, 
I will work with you to get you additional materials. I am not 
aware of the invocation of any privilege in response to that 
particular----
    Mr. Soto. OK, so there is no privilege response there, OK.
    Arctic National Wildlife Refuge leasing, no documents 
provided. What is the specific executive privilege--what is the 
nature of the executive privilege being claimed there?
    Mr. Jorjani. What was the date of that request, sir?
    Mr. Soto. That was July 29, 2019. No documents were 
provided.
    Mr. Jorjani. We sent an acknowledgment letter on July 30, 
2019. My understanding is the review is underway, per standard 
processes, and that no privilege has been, nor would it be, 
implemented at this time.
    Mr. Soto. So, there is no privilege that you are aware of 
in that one?
    What about the DOI reorganization plan? No documents have 
been provided yet. What specific executive privilege is being 
raised there?
    Mr. Jorjani. What is being raised is adhering to the 
ongoing process, and making sure that we respect legitimate 
legislative oversight, while at the same time--I want to be 
careful how I am phrasing this--executive branch 
confidentiality interests. Not the invocation of executive 
privilege, which is beyond my authority.
    Mr. Soto. What are the nature of the confidentiality 
interests?
    Mr. Jorjani. That would vary from matter to matter. We are 
happy to arrange, via----
    Mr. Soto. In this specific one, obviously, not generally.
    Mr. Jorjani. I will have to get back to you with a specific 
answer on that. I want to make sure I am being responsive----
    Mr. Soto. I understand. And the BSEE offshore lease 
decommissioning, what was the specific executive privilege, the 
nature of it, there? Not responding----
    Mr. Jorjani. I am sorry, what was the date for the BSEE 
request?
    Mr. Soto. It was July 30, 2019.
    Mr. Jorjani. My documents only go up to June 11, 2019. But 
I am happy to track down that specific request.
    I can say with near certainty executive privilege is not 
being asserted by the Department. That is a privilege that 
resides with the White House, and specifically the President.
    Mr. Soto. What about the biological opinion on three major 
pesticides? Is there executive privilege being made there? And 
what would be the nature of it, if so?
    Mr. Jorjani. Out of an abundance of caution, what was the 
date of that request?
    Mr. Soto. It was March 26, 2019.
    Mr. Jorjani. My documents show that it is in process, and 
that, obviously, we need to make sure we are being responsive 
to you. But, again, no invocation of executive privilege or any 
other privileges, merely adherence to making sure we are 
responsive to legislative oversight, while protecting important 
executive branch confidentiality interests.
    Mr. Soto. Are you willing to commit to a privilege log for 
these and the remainder of the non-responsive requests, so that 
we can understand the nature of the privileges being asserted 
under executive privilege, such as security, communications, 
deliberative privilege, or others?
    Mr. Jorjani. Whether deliberative process privilege, 
attorney-client privilege, attorney-work product, executive 
privilege, I am not aware at this time, and I want to be 
careful--I am not aware, in my 2 days as the Solicitor, that 
executive privilege has been asserted, merely a rigorous 
adherence to the protection of executive branch confidentiality 
interest, while respecting legitimate oversight of the 
legislative branch.
    But if there is a privilege log, I commit to working with 
the Office of Congressional and Legislative Affairs----
    Mr. Soto. I am asking that you generate one for us, so that 
we understand the nature of why certain documents are given or 
not.
    Mr. Jorjani. I commit to getting back to you ASAP regarding 
if we have those privilege logs. Because I am not aware that 
executive branch privilege has been invoked or asserted at any 
point for these. But again, I want to be careful. It is 
executive branch privilege that we are not invoking.
    Mr. Soto. Thank you.
    The Chairman. Thank you very much.
    Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair. Thank you, Mr. Jorjani, 
for appearing before the Committee today.
    In July, I shared with this Committee some of my concerns 
regarding the Trump administration's decision to renew two 
mining leases right next to the Boundary Waters Canoe Area 
Wilderness in Minnesota, ignoring good science to prioritize 
the interests of industry over all Americans.
    On March 1, the Committee sent its first request regarding 
this issue well over a half-a-year ago. In this case we 
actually received some documents in response to our request. 
The files we received contained some 10,945 pages of documents, 
most of them entirely irrelevant. In fact, 3,131 pages--nearly 
one-third--were duplicates.
    The other two-thirds that were actually original were 
comprised of documents with almost entirely redacted pages, 
others that are publicly available, several pages of computer 
code, irrelevant papers on the long-term storage of nuclear 
waste and, perhaps most peculiarly, the 934-page House 
Appropriations Committee report that--and I shouldn't need to 
point this out--is a February report from this House of 
Representatives.
    So, in our request we asked for documents since the 
beginning of the Trump administration, which began, as we know, 
on January 20, 2017. You described sending us a 50-page legal 
complaint from July 2016 as being responsive. And can you 
explain why we were also sent five additional copies of that 
Obama-era document along with the original?
    [Slide.]
    Mr. Tonko. And I believe on this slide, Slide 1, we have 
six copies of the document.
    Does that in any way look responsive? And what about our 
second slide here?
    [Slide.]
    Mr. Tonko. What about this? Do you consider this 
responsive?
    [Slide.]
    Mr. Tonko. And a third slide. This one, I think, is most 
telling. This one gave us a lot of information, a fully 
redacted page.
    So, just so we know what we are not looking at here, can 
you tell me which briefing memo this is or isn't?
    Mr. Jorjani. Regarding that specific document, I am not 
sure. I want to make sure, though, we adhere to our process. 
And you mentioned documents that were released via FOIA that 
were un-redacted that were redacted when they came to you, 
fulfilling your legitimate oversight response. If that was the 
case, that is unacceptable.
    And regarding this incredibly important issue, I am happy 
to provide staff briefings to you or to your staff, and to get 
you the information you need.
    Mr. Tonko. And when would you do those?
    Mr. Jorjani. Working via the Office of Congressional and 
Legislative Affairs, the Office of the Solicitor can work at 
your convenience, sir.
    Mr. Tonko. Well, I just find it is grossly unprofessional, 
and it is just so short in responding to what are concerns 
about a very natural bit of treasure.
    These and other documents were labeled with a FOIA 
exemption, saying they are pre-decisional. As you undoubtedly 
know, however, Congress is not subject to the exemptions under 
FOIA.
    So, Mr. Jorjani, I do not agree with your ability to 
withhold these documents based on deliberative process. It is 
within the purview of this Committee to ask for these documents 
because it serves legitimate legislative purpose. And we would, 
again, want this information exchanged so that we can defend 
what we believe is a rightful concern for some very treasured 
natural resources.
    I expect you to provide us with the actual documents. And 
would that be done through this Office of Congressional 
Affairs?
    Mr. Jorjani. I do want to be careful. You have mentioned 
deliberative process privilege, and I want to be careful to 
ensure that I am making clear I am not invoking deliberative 
process privilege.
    Regarding this specific matter, I commit to going back and 
working with the Office of the Solicitor, Office of 
Congressional and Legislative Affairs, and the Office of the 
Executive Secretary to get you a more responsive set of 
materials.
    Mr. Tonko. Well, this certainly isn't a courtroom. And I 
have told you this Committee has a legitimate legislative 
purpose in seeking these documents. It is not up to the 
executive branch to define that purpose.
    And if you would, please, just provide the documents. And 
if it takes the Office of Congressional Affairs, I would hope 
there would be some more organized effort, orderly effort by 
which the information can be exchanged.
    Our staff notified Interior ahead of time that this request 
would be a topic of conversation today. We asked for a witness 
with knowledge of the status of the requests and the authority 
to commit to providing the documents. There is no excuse for us 
not, as a Committee, to be able to realize a definite 
commitment with a timetable.
    So, if you could get back to the Committee ASAP, and let us 
know exactly when the Office of Congressional Affairs can 
provide this information, it would be most appreciated.
    Mr. Jorjani. I commit to getting back to you, as you 
stated, ASAP, and I look forward to following up with you. 
Thank you, sir.
    The Chairman. Thank you.
    Mr. Lowenthal.
    Dr. Lowenthal. Thank you again, Mr. Chair.
    Mr. Jorjani, again, thank you for coming and testifying. I 
would like to focus on one of the letters which we did receive 
a response--well, let me rephrase that. We received files. I am 
not sure I would consider that a response, but we did get 
files.
    For example, in February we sent a letter to Secretary 
Bernhardt about the DOI's abrupt decision to cancel the 
National Academy of Science Engineering and Medicine study on 
the potential human health effects of surface coal mining 
operations in Central Appalachia. And, our understanding, that 
study was halfway through, but it was abruptly canceled.
    In February, we sent the letter. In May, we got a response 
of 47 pages on why this abrupt decision to cancel this study. 
Many of them had major redactions. I want to show you this on 
Slide 1, major redactions on that.
    [Slide.]
    Dr. Lowenthal. On June 4, which was almost 4 months ago, we 
asked for the un-redacted pages from this. We haven't received 
a response yet for that letter. As I just said, it has been 
almost 4 months.
    You now have--you see these. Can you respond by next week 
with the un-redacted documents, or provide a specific 
explanation why it was redacted? We are talking about a study 
that was halfway completed and got canceled abruptly. We asked 
for just a response, and we got redaction.
    Mr. Jorjani. Thank you for the question, sir. I commit to 
following up with you. The records before me show that it is a 
rolling production, because we are trying to have a sense of 
urgency in responding to your legitimate oversight request--so 
far we have produced 349 documents, totaling over 3,000 pages--
--
    Dr. Lowenthal. Well, let's just talk about that. Those 349 
documents you say you have responded with--and we received that 
disk on Friday of these--what you are saying are the 349 
different documents--we had 348, you say 349, we will accept 
your number--on the mountain-top removal study. And that 
consisted of 3,004 pages of this that you responded to us.
    My staff went through all of those, and roughly 2,700 pages 
were completely unrelated to what we asked. We got 30--a little 
over 3,000--2,700, which is about 90 percent--were unrelated. 
We got plenty of e-mails about the environmental achievement 
awards, technical training programs, a bunch of Office of 
Surface Mining handbooks, and dozens of irrelevant weekly 
progress reports.
    [Slide.]
    Dr. Lowenthal. A lot of the pages that we got looked like 
this--look at Slide 2. That doesn't make any sense. Can you 
tell us what this says? This was in those pages that you said 
you sent.
    [Slide.]
    Dr. Lowenthal. Or how about these? Those were very 
informative. We had a great discussion about what this meant. 
This was the entire file. There were no pages before or after 
it. This is what we received.
    Can you tell me what this document is that you mentioned 
that you then sent to us?
    Mr. Jorjani. Is that the entire production of the document?
    Dr. Lowenthal. Of that page, of that document, of the 1 of 
the 348. There was nothing before it and nothing after it. That 
is it, 1 of the 348.
    Mr. Jorjani. If that is the entire production, I would find 
that unacceptable, and I----
    Dr. Lowenthal. Thank you, so did we.
    Mr. Jorjani. I commit to sitting down with the Office of 
Congressional and Legislative Affairs, the Executive Secretary, 
and the Office of the Solicitor to see what executive branch 
confidentiality interest they thought they were protecting.
    Dr. Lowenthal. We appreciate that, because, obviously, we 
don't know what this is. We don't know what we are getting when 
this is what we are getting.
    You are telling us you want to be responsive, but that is 
meaningless when we get things like this, when you give us 
pages that may be responsive or not--this may have been the 
most important thing or not, but we don't have a clue what this 
is all about.
    We would like to see the un-redacted pages, or an 
explanation of why they are being redacted, not one of the 
documents, 1 of the 348--this is it. It doesn't help us at all. 
It doesn't develop that oversight that can be developed on 
trust.
    So, I just want to say we would like to have it by next 
week. We are asking just what this means, what is going on.
    And I am not asking for a lot, you know? Even by next week, 
just tell us why you can't give us responses like this. This is 
what you said you sent us on 1 of the 348, this is an example 
of one of those stand-alone documents.
    We need some explanation, and I hope that we can have that.
    Mr. Jorjani. Getting that kind of response within that 
timeline, at least explaining what executive branch 
confidentiality interest--what the reason was for that type of 
redaction, it is the least we can do to be respectful to you 
and to the----
    Dr. Lowenthal. Thank you. I appreciate that. This is very 
well written.
    With that, I yield back.
    The Chairman. Thank you, Mr. Lowenthal.
    And thank you, sir. I want to thank you for your testimony. 
The hearing has helped us understand the nature and extent of 
what is going on from the Department of the Interior that is, 
quite frankly, hindering our legislative function on this 
Committee. I say that because, with both Secretaries, my office 
and oversight staff indicated that the relationship didn't need 
to be cozy, but it did need to be professional and up-front.
    And we have been professional. We have been, in the 
estimates of some, patient to a fault. But, as we go through 
the current drama and trauma about the equal status of Congress 
to the executive branch, I think we are to the point now that, 
moving forward, we--as Mr. Lowenthal said--would like weekly 
updates on the production and the process of document requests. 
And that would not just be to me, but to all members on this 
Committee, to the Ranking Member, as well.
    They are in your process--what are the target dates? The 
name of the person in charge of making sure individual document 
requests are fulfilled, when it is being sent to your office, 
when it is being sent to Legislative Affairs, the search terms, 
and the scope, and the date of those searches.
    I feel that we are to the point, at least the Majority of 
this Committee is fully to the point, that if we continue to go 
through the process that we went through today, which is really 
an airing of our grievances to you, and those continue to be 
brick walls, we will be left with one choice, and that would be 
to compel the release of those documents.
    I look forward to your cooperation. I appreciate your 
attendance, and the meeting is adjourned. Thank you.
    Mr. Jorjani. And can I just say thank you, Chairman? Thank 
you for the hearing. I look forward to--I actually have a list 
of our status I am happy to share with the Majority staff or 
Minority staff, at their discretion. Thank you.

    The Chairman. Thank you.

    [Whereupon, at 3:47 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submissions for the Record by Rep. Grijalva

Internal DOI e-mail delaying correspondence with Chair Grijalva

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Follow-up internal DOI e-mail delaying correspondence with 
Chair Grijalva

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             ------                                



Submission for the Record by Rep. Lowenthal

Unresponsive and heavily redacted DOI document production

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             ------                                



Submission for the Record by Rep. Tonko

Unresponsive and heavily redacted DOI document production

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             ------                                



Submission for the Record by Rep. Haaland

Unnecessarily redacted phone records

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Rep. Grijalva

  --  Letter from Chair Grijalva to BLM Deputy Director Brian 
            Steed on NPRA Integrated Activity Plan dated 
            January 11, 2019.

  --  Letter from Chair Grijalva to DOI Acting Secretary David 
            Bernhardt on ESA dated January 30, 2019.

  --  Letter from Chair Grijalva and Rep. Lowenthal to DOI 
            Acting Secretary Bernhardt on Cancelled NAS Led 
            Impact of Surface Mining Study dated February 11, 
            2019.

  --  Letter from Chair Grijalva and Rep. Lowenthal to DOI 
            Acting Secretary Bernhardt on BLM Oil and Gas 
            Enforcement dated March 11, 2019.

  --  Letter from Chair Grijalva and Reps. Huffman and 
            Velazquez to DOI Acting Secretary Bernhardt on 
            Pesticides and ESA dated March 26, 2019.

  --  Letter from Chair Grijalva and Rep. Cox to DOI Acting 
            Secretary Bernhardt on DOI Reorganization dated 
            April 10, 2019.

  --  Letter from Chair Grijalva to DOI Acting Secretary 
            Bernhardt on Invite to Hearing and Document 
            Requests Production Schedule dated May 6, 2019.

  --  Letter from Chair Grijalva and Reps. Lowenthal, Castor, 
            and Pallone, Jr. to DOI Secretary Bernhardt on BOEM 
            OCS DPP dated May 23, 2019.

  --  Letter from Chair Grijalva to the White House on DOI 
            Vacancies dated June 12, 2019.

  --  Letter from Chair Grijalva to DOI Secretary Bernhardt on 
            FLREA dated June 24, 2019.

  --  Letter from Chair Grijalva to DOI Secretary Bernhardt on 
            El Dorado Holdings, Inc.'s Proposed Vigneto Arizona 
            Development dated July 3, 2019.

  --  Letter from Chair Grijalva to BLM Acting Director Brian 
            Steed on El Dorado Holdings, Inc.'s Proposed 
            Vigneto Arizona Development dated July 3, 2019.

  --  Letter from Chair Grijalva and Reps. Huffman, Lowenthal, 
            and DeGette to DOI Secretary Bernhardt on ANWR 
            dated July 29, 2019.

  --  Letter from Chair Grijalva to DOI Secretary Bernhardt on 
            BSEE Offshore Leasing dated July 30, 2019.

  --  Letter from Chair Grijalva and Reps. Huffman to DOI 
            Secretary Bernhardt on CVP Biological Opinion dated 
            August 19, 2019.

  --  PowerPoint of 400 of 12,000 Page DOI Document Production 
            of Blank Excel Sheets.

                                 [all]
</pre></body></html>
